No. ______
In the

Supreme Court of the United States
__________________
PATRICK J. COLLINS, ET AL.,
Petitioners,
v.
STEVEN T. MNUCHIN, SECRETARY,
U.S. DEPARTMENT OF TREASURY, ET AL.,
Respondents.
__________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

__________________
PETITION FOR A WRIT OF CERTIORARI
__________________
Charles J. Cooper
Charles Flores
Counsel of Record
BECK REDDEN LLP
David H. Thompson
1221 McKinney St.
Peter A. Patterson
Houston, Texas 77010
Brian W. Barnes
(713) 951-3700
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
ccooper@cooperkirk.com
Counsel for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
In 2008, Congress created the Federal Housing
Finance Agency (FHFA)—an “independent” agency
with sweeping authority over the housing finance
system. 12 U.S.C. § 4511(a). Unlike every other
independent agency except the Consumer Financial
Protection Bureau, FHFA is headed by a single
Director who can only be removed for cause by the
President and is exempt from the congressional
appropriations process. 12 U.S.C. §§ 4512(b)(2),
4516(f)(2). The questions presented are:
1. Whether FHFA’s
separation of powers; and

structure

violates

the

2. Whether the courts must set aside a final agency
action that FHFA took when it was unconstitutionally
structured and strike down the statutory provisions
that make FHFA independent.

ii
PARTIES TO THE PROCEEDING
Petitioners Patrick J. Collins, Marcus J. Liotta, and
William M. Hitchcock were the plaintiffs in the District
Court and the plaintiffs-appellants in the Court of
Appeals.
Respondents Steven T. Mnuchin, Secretary, U.S.
Department of Treasury, Department of the Treasury,
Federal Housing Finance Agency (“FHFA”), and Mark
A. Calabria, Director of the Federal Housing Finance
Agency were defendants-appellees in the Court of
Appeals. The Department of the Treasury and the
FHFA were defendants in the District Court. Jacob J.
Lew, the previous Secretary of the Treasury, was
initially a defendant in the District Court but later
replaced as a defendant by the current Secretary of the
Treasury, Steven T. Mnuchin. Melvin L. Watt, the
previous Director of the FHFA, was a defendant in the
District Court and initially a defendant-appellee in the
Court of Appeals but later replaced as a defendantappellee in the Court of Appeals by FHFA Acting
Director Joseph M. Otting. Joseph M. Otting was
subsequently replaced as a defendant-appellee in the
Court of Appeals by FHFA’s current Director, Mark A.
Calabria.

iii
STATEMENT OF RELATED PROCEEDINGS
• Collins v. Mnuchin, No. 17-20364 (5th Cir.) (en
banc opinion issued and judgment entered
September 6, 2019).
• Collins v. Mnuchin, No. 16-3113 (S.D. Tex.)
(opinion issued and final judgment entered May 22,
2017).
Apart from the proceedings directly on review in
this case, there are no other directly related
proceedings in any court.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . 1
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
I.

Congress Establishes FHFA as an
Independent Agency Headed by a Single
Director. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

II.

FHFA Forces Fannie and Freddie into
Conservatorship and Signs the PSPAs on
their Behalf.. . . . . . . . . . . . . . . . . . . . . . . . . . 11

III.

FHFA Expropriates Private Shareholders’
Investments by Imposing the Net Worth
Sweep. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

IV.

Petitioners
Challenge
FHFA’s
Constitutionality and the Net Worth
Sweep. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

v
REASONS FOR GRANTING THE PETITION . . . 16
I.

This Court Should Decide Whether
Independent Agencies May be Headed by a
Single Individual. . . . . . . . . . . . . . . . . . . . . . 16
A. This case presents an important
separation of powers question on which
the lower federal courts are divided. . . . . 16
B. This case is the best vehicle for ruling on
the constitutionality of independent
agencies headed by a single director. . . . 19

II.

This Court Should Decide Whether
Backward-Looking Remedies Are Available
in Presidential Removal Cases. . . . . . . . . . . 23
A. Guidance from this Court is needed on
the proper remedy for violations of the
President’s removal power. . . . . . . . . . . . 23
B. The Fifth Circuit was wrong to refuse to
set aside the final agency action that
Petitioners challenge.. . . . . . . . . . . . . . . . 28
C. The scope of a proper remedy for
violations of the President’s removal
power is an important question. . . . . . . . 32

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

vi
APPENDIX
Appendix A Opinion and Judgment on Rehearing
En Banc in the United States Court of
Appeals for the Fifth Circuit
(September 6, 2019) . . . . . . . . . . . App. 1
Appendix B Order
Granting
Petitions for
Rehearing En Banc in the United
States Court of Appeals for the Fifth
Circuit
(November 12, 2018) . . . . . . . . . App. 164
Appendix C Opinion and Judgment in the United
States Court of Appeals for the Fifth
Circuit
(July 16, 2018) . . . . . . . . . . . . . App. 166
Appendix D Memorandum and Order with Final
Judgment in the United States
District Court for the Southern
District of Texas, Houston Division
(May 22, 2017) . . . . . . . . . . . . . App. 283

vii
TABLE OF AUTHORITIES
CASES
Alaska Airlines, Inc. v. Brock,
480 U.S. 678 (1987). . . . . . . . . . . . . . . . . . . . . . . 35
American Trucking Ass’ns v. Smith,
496 U.S. 167 (1990). . . . . . . . . . . . . . . . . . . . . . . 32
Bhatti v. FHFA,
No. 18-2506 (8th Cir.) . . . . . . . . . . . . . . . . . . . . . 33
Bowsher v. Synar,
478 U.S. 714 (1986). . . . . . . . . . . . . . . . . . . passim
Buckley v. Valeo,
424 U.S. 1 (1976). . . . . . . . . . . . . . . . . . . . . . . . . 30
Camreta v. Greene,
563 U.S. 692 (2011). . . . . . . . . . . . . . . . . . . . . . . . 6
CFPB v. Seila Law LLC,
923 F.3d 680 (9th Cir. 2019). . . . . . . . . . . . . . . . . 5
Church of Scientology v. United States,
506 U.S. 9 (1992). . . . . . . . . . . . . . . . . . . . . . . . . 20
Citizens to Preserve Overton Park, Inc. v. Volpe,
401 U.S. 402 (1971). . . . . . . . . . . . . . . . . . . . . . . 29
Clinton v. New York,
524 U.S. 417 (1998). . . . . . . . . . . . . . . . . . . . . . . 30
Cobbledick v. United States,
309 U.S. 323 (1940). . . . . . . . . . . . . . . . . . . . 20, 21
Dep’t of Commerce v. New York,
139 S. Ct. 2551 (2019). . . . . . . . . . . . . . . . . . . . . 29

viii
Ellis v. Interstate Commerce Comm’n,
237 U.S. 434 (1915). . . . . . . . . . . . . . . . . . . . . . . 20
Free Enterprise Fund v. Public Co. Accounting
Oversight Bd.,
561 U.S. 477 (2010). . . . . . . . . . . . . . . . . . . passim
Griffith v. Kentucky,
479 U.S. 314 (1987). . . . . . . . . . . . . . . . . . . . . . . 31
Harper v. Virginia Dep’t of Taxation,
509 U.S. 86 (1993). . . . . . . . . . . . . . . . . . . 8, 31, 32
Humphrey’s Executor v. United States,
295 U.S. 602 (1935). . . . . . . . . . . . . . . . . . . 4, 5, 19
In re Aiken County,
645 F.3d 428 (D.C. Cir. 2011). . . . . . . . . . . . . . . 35
INS v. Chadha,
462 U.S. 919 (1983). . . . . . . . . . . . . . . . . . . . . 8, 30
John Doe Co. v. CFPB,
849 F.3d 1129 (D.C. Cir. 2017). . . . . . . . . . . . . . 33
Kuhn v. Fairmont Coal Co.,
215 U.S. 349 (1910). . . . . . . . . . . . . . . . . . . . . . . 31
Lemon v. Kurtzman,
411 U.S. 192 (1973). . . . . . . . . . . . . . . . . . . . . . . 30
Lucia v. SEC,
138 S. Ct. 2044 (2018). . . . . . . . . . . . . . . . 8, 29, 32
MDK, Inc. v. Mike’s Train House, Inc.,
27 F.3d 116 (4th Cir. 1994). . . . . . . . . . . . . . . . . 20

ix
Mistretta v. United States,
488 U.S. 361 (1989). . . . . . . . . . . . . . . . . . . . . . . 34
Mohawk Industries, Inc. v. Carpenter,
558 U.S. 100 (2009). . . . . . . . . . . . . . . . . . . . . . . 22
Morrison v. Olson,
487 U.S. 654 (1988). . . . . . . . . . . . . . . . . . . . . 4, 19
Murphy v. NCAA,
138 S. Ct. 1461 (2018). . . . . . . . . . . . . . . . 9, 34, 36
Myers v. United States,
272 U.S. 52 (1926). . . . . . . . . . . . . . . . . . . . . . . 3, 4
NLRB v. Noel Canning,
134 S. Ct. 2550 (2014). . . . . . . . . . . . . . . . . . . 8, 29
NLRB v. Noel Canning,
705 F.3d 490 (D.C. Cir. 2013). . . . . . . . . . . . . . . 30
Nguyen v. United States,
539 U.S. 69 (2003). . . . . . . . . . . . . . . . . . . . . . . . 30
Northern Pipeline Constr. Co. v. Marathon Pipe
Line Co.,
458 U.S. 50 (1982). . . . . . . . . . . . . . . . . . . . . . . . 30
PHH Corp. v. CFPB,
881 F.3d 75 (D.C. Cir. 2018). . . . . . . . 5, 17, 33, 36
Reich v. National Engineering & Contracting Co.,
13 F.3d 93 (4th Cir. 1993). . . . . . . . . . . . . . . . . . 21
Reynoldsville Casket Co. v. Hyde,
514 U.S. 749 (1995). . . . . . . . . . . . . . . . . . . . . . . 31

x
Synar v. United States,
626 F. Supp. 1374 (D.D.C. 1986) . . . . . . . . . . . . 25
United States v. Kernan Hospital,
No. 11-2961, 2012 WL 5879133 (D. Md. Nov. 20,
2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Williams v. United States,
401 U.S. 667 (1971). . . . . . . . . . . . . . . . . . . . . . . 31
Youngstown Sheet & Tube Co. v. Sawyer,
343 U.S. 579 (1952). . . . . . . . . . . . . . . . . . . . . . . 30
CONSTITUTION
U.S. Const. art. II, § 1 . . . . . . . . . . . . . . . . . . . . . . 1, 3
U.S. Const. art. II, § 2 . . . . . . . . . . . . . . . . . . . . . . . . 3
U.S. Const. art. II, § 3 . . . . . . . . . . . . . . . . . . . . . . 1, 3
STATUTES
5 U.S.C. § 706 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 29
12 U.S.C. § 4511(a). . . . . . . . . . . . . . . . . . . . . . 2, 9, 10
12 U.S.C. § 4512 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
12 U.S.C. § 4512(b)(2) . . . . . . . . . . . . . . . . . . . . . . . 10
12 U.S.C. § 4516 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
12 U.S.C. § 4516(f)(2) . . . . . . . . . . . . . . . . . . . . . 10, 34
12 U.S.C. § 4617(a). . . . . . . . . . . . . . . . . . . . . . . . . . 11
12 U.S.C. § 4617(b)(2)(J) . . . . . . . . . . . . . . . . . . . . . 34
12 U.S.C. § 4617(f) . . . . . . . . . . . . . . . . . . . . . . . . . . 34

xi
12 U.S.C. § 5562(c)(1). . . . . . . . . . . . . . . . . . . . . . . . 20
12 U.S.C. § 5562(h)(2) . . . . . . . . . . . . . . . . . . . . . . . 20
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . 1, 5
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
44 U.S.C. § 3502(5). . . . . . . . . . . . . . . . . . . . . . . . . . 10
Housing and Community Development Act of 1992
§§ 1311, 1312, 106 Stat. 3672 (Oct. 28, 1992) . . 10
Pub. L. No. 99-177 § 274, 99 Stat. 1037 (1985) . . . 26
OTHER AUTHORITIES
Michael Cohn, Beckstead and Watts Settles
Inspection Case with PCAOB, ACCOUNTING
TODAY (Feb. 23, 2011), https://bit.ly/2mb1jRw . 27
Fannie & Freddie Regulator on Next Steps in
Mortgage Market Reform, CNBC (Sept. 12,
2019), https://cnb.cx/2maxHUv . . . . . . . . . . . . . 18
FHFA, Table 1: Quarterly Draws on Treasury
Commitments to Fannie Mae and Freddie Mac
per PSPA, https://bit.ly/2l6Oyr7 . . . . . . . . . . . . 13
FHFA, Table 2: Dividends on Enterprise Draws
from Treasury, https://bit.ly/2mLAFPj . . . . . . . 13
Jonathan F. Mitchell, The Writ-of-Erasure Fallacy,
104 VA. L. REV. 934 (2018) . . . . . . . . . . . . . . . . . 29

xii
Ronald Reagan, Order on Emergency Deficit Control
Measures for Fiscal Year 1986,
https://bit.ly/2mqPHtz . . . . . . . . . . . . . . . . . . . . 25
THE FEDERALIST NO. 47 (James Madison) . . . . . . . 34

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully seek a writ of certiorari to
review the judgment of the en banc United States
Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the en banc Court of Appeals has not
yet been published in the Federal Reporter but can be
found at 2019 WL 4233612 and is reproduced at App.1.
The opinion of the three-judge panel of the Court of
Appeals is reported at 896 F.3d 640 and reproduced at
App.166. The District Court’s opinion is reported at 254
F. Supp. 3d 841 and reproduced at App.283.
JURISDICTION
The en banc Court of Appeals issued its judgment
on September 6, 2019. This Court has jurisdiction
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Section 1 of Article II of the United States
Constitution provides in relevant part:
The executive Power shall be vested in a
President of the United States of America.
Section 3 of Article II of the United States
Constitution provides in relevant part:
[The President] shall take Care that the Laws be
faithfully executed[.]

2
Section 4511(a) of Title 12 of the United States Code
provides in relevant part:
There is established the Federal Housing
Finance Agency, which shall be an independent
agency of the Federal Government.
Section 4512 of Title 12 of the United States Code
provides in relevant part:
(a) Establishment of position
There is established the position of the Director
of the Agency, who shall be the head of the
Agency.
(b) Appointment; term
....
(2) Term
The Director shall be appointed for a term of 5
years, unless removed before the end of such
term for cause by the President.
Section 4516 of Title 12 of the United States Code
provides in relevant part:
(a) Annual assessments
The Director shall establish and collect from the
regulated entities annual assessments in an
amount not exceeding the amount sufficient to
provide for reasonable costs (including
administrative costs) and expenses of the
Agency . . . .
(f) Treatment of assessments
....
(2) Not Government funds
The amounts received by the Director from any

3
assessment under this section shall not be
construed to be Government or public funds or
appropriated money.
INTRODUCTION
This case provides the Court with an opportunity to
ensure adherence to the separation-of-powers
principles at the heart of our system of Government.
Indeed, this Court’s review is necessary to protect the
integrity of all three branches of our tripartite Federal
Government.
1. The Constitution vests “the executive Power in a
President of the United States of America,” and it
directs the President to “take Care that the Laws be
faithfully executed.” U.S. Const. art. II, §§ 1&3. By
vesting the executive power in a single individual, the
Framers sought to ensure clear lines of responsibility
for executive action—the buck stops with the
President.
The Framers knew that the President alone would
not be able to ensure the law’s faithful execution, and
the Constitution thus provides for the appointment of
“Officers of the United States.” Id. § 2. Although the
Constitution does not expressly grant the President
authority to remove executive Officers, in the “Decision
of 1789,” the First Congress recognized that the
Constitution by necessary implication vests the
President with removal authority. This Court ratified
that decision in Myers v. United States, 272 U.S. 52
(1926). Writing for the Court, Chief Justice Taft—the
only Justice also to have served as President—
explained that “under the Constitution the President

4
has the exclusive power of removing executive officers
of the United States whom he has appointed by and
with the advice and consent of the Senate.” Id. at 106.
So matters stood until 1935, when in Humphrey’s
Executor v. United States, 295 U.S. 602 (1935), the
Court approved a restriction on presidential removal of
commissioners of the Federal Trade Commission (FTC).
In doing so, however, the Court reasoned that the FTC
was not really an executive agency at all, but rather an
independent “body of experts” whose duties were
“predominantly quasi judicial and quasi legislative.” Id.
at 624, 626.
Today the notion of a quasi-legislative or quasijudicial agency is an anachronism—“it is hard to
dispute that the powers of the FTC at the time of
Humphrey’s Executor would at the present time be
considered ‘executive,’ at least to some degree.”
Morrison v. Olson, 487 U.S. 654, 689 n.28 (1988).
With the reasoning of Humphrey’s Executor no
longer viable, but with its holding intact, the courts
have been left to answer the imponderable question
whether particular removal restrictions go too far in
interfering with the President’s duty to take care that
the laws be faithfully executed. See id. at 689–90. And
that predictably has led not only to increasingly
aggressive congressional restrictions on presidential
control over executive functions, but also to confusion
and conflict in the lower courts, as exemplified by two
recently created agencies: the Federal Housing Finance
Agency (FHFA) and the Consumer Financial Protection
Bureau (CFPB). Both agencies wield tremendous
regulatory power, the former over housing finance and

5
the latter over consumer finance. And both are
“independent,” headed by leadership with for-cause
removal protection from the President. But unlike with
other independent agencies, Congress made no
pretense that FHFA and the CFPB would consist of an
independent multi-member body of experts
dispassionately addressing technical issues bereft of
policy judgment. Instead, each agency is helmed by a
single director who alone wields the tremendous power
of the office without fear of interference by the
President.
The en banc Fifth Circuit, in the decision below,
correctly held that this design violates the separation
of powers. The en banc D.C. Circuit and a panel of the
Ninth Circuit, by contrast, have held that this design
does not violate the Constitution. See PHH Corp. v.
CFPB, 881 F.3d 75 (D.C. Cir. 2018) (en banc); CFPB v.
Seila Law LLC, 923 F.3d 680 (9th Cir. 2019).
This Court should grant review to resolve this
conflict by, at a minimum, declaring that Congress goes
too far when it insulates from presidential control a
principal officer who alone heads an executive agency.
But the Court need not stop there. It also should take
this opportunity to return the Executive Branch to
presidential control, leaving behind the detour marked
by Humphrey’s Executor and returning to the path set
by Myers, the Decision of 1789, and the Constitution
itself.1

1

Although this Court has unqualified authority to grant certiorari
“upon the petition of any party,” 28 U.S.C. § 1254(1), including a
prevailing party, the Court has “generally declined to consider

6

cases at the request of a prevailing party.” Camreta v. Greene, 563
U.S. 692, 703–04 (2011). In this case, Petitioners prevailed below
on the question whether the “for cause” restriction on removal of
FHFA’s single Director violates the separation of powers, but the
Fifth Circuit ultimately afforded them no relief from the injuries
they sustained from the Net Worth Sweep. Petitioners are thus not
“prevailing parties” in any meaningful sense. Indeed, “this Court
reviews only judgments, not statements in opinions,” and
Petitioners here ask the Court to alter the judgment entered below
by vacating the Net Worth Sweep. See id. at 701.
In any event, even if Petitioners could reasonably be viewed as
the prevailing parties below, there are several factors that, taken
together, make Petitioners’ admittedly unusual request
exceptional. First, the single-director issue clearly is certworthy,
as there is a clean circuit split on this important question. Second,
the Solicitor General accordingly has urged the Court to grant a
pending petition seeking review of the Ninth Circuit’s decision
upholding the constitutionality of the removal restriction on
CFPB’s single director structure. Brief for the Respondent at 20,
Seila Law LLC v. CFPB, No. 19-7 (U.S. Sept. 17, 2019). Third, as
discussed in detail infra, the Seila Law case is an exceedingly poor
vehicle for this Court’s review for a number of reasons, not least of
which is that all of the parties to that case, as well as the Solicitor
General, take the position that the CFPB’s independent singledirector structure is unconstitutional, and the Court would thus
have to appoint an amicus to argue in support of the Ninth
Circuit’s contrary ruling. Fourth, while Petitioners anticipate that
FHFA will in due course file its own petition seeking this Court’s
review of the decision below invalidating its single-director
structure, by including the question in our petition we ensure that
the question may be considered in this case even if FHFA does not
affirmatively seek review by this Court. Fifth, it is apparent that
FHFA, unlike CFPB, would continue to defend its constitutionality
if this petition is granted. See FHFA FRAP 28(j) Letter, Bhatti v.
FHFA, No. 18-2506 (8th Cir. Sept. 23, 2019) (criticizing en banc
Fifth Circuit’s decision in this case and arguing that FHFA is
constitutionally structured). Sixth, and finally, also unlike the
petition in Seila Law, granting the petition in this case would

7
2. While the Fifth Circuit correctly held that
FHFA’s insulation from at-will presidential removal
power unconstitutionally dilutes the President’s
Article II authority, the court failed to carry out the
Article III responsibilities that follow from that finding.
“When a plaintiff with Article III standing challenges
the action of an unconstitutionally insulated officer,
that action must be set aside.” App.152 (Willet, J.,
dissenting) (emphasis added). Yet a bare 9-7 majority
of the en banc Fifth Circuit refused to vacate the action
of the unconstitutionally structured FHFA that
grievously harmed the Petitioners before it—the socalled “Net Worth Sweep” whereby FHFA, as
conservator of Fannie Mae and Freddie Mac,
transferred to the federal government the entire
economic interest in those highly profitable companies
held by private shareholders. This decision was both
highly consequential and erroneous.

afford the Court an opportunity to address in one case not only
whether the separation of powers is violated by insulating a single
agency head from Presidential control but also the independently
certworthy question of what remedy the Constitution requires
when a litigant is injured by a final agency action taken while an
agency is exercising executive power without the required degree
of oversight from the President.
In sum, Petitioners believe the Court should grant any petition
filed by Respondents that asks the Court to rule on the
constitutionality of FHFA’s structure. If no such petition is filed,
however, the Court should exercise its discretion to grant review
on both questions presented in this petition.

8
First, the APA mandates that “the reviewing Court
shall . . . set aside agency action . . . found to be . . .
contrary to constitutional right, power, privilege, or
immunity.” 5 U.S.C. § 706 (emphasis added).
Second, this Court has consistently vacated agency
action taken in violation of the Appointments Clause
and other structural provisions of the Constitution. See,
e.g., Lucia v. SEC, 138 S. Ct. 2044, 2055 (2018);
National Labor Relations Bd. v. Noel Canning, 134 S.
Ct. 2550 (2014); Immigration and Naturalization Servs.
v. Chadha, 462 U.S. 919, 936 (1983). There is no basis
for uniquely disfavoring claims based upon
unconstitutional restrictions of the President’s removal
power.
Third, this Court decades ago repudiated as
contrary to “basic norms of constitutional adjudication”
the practice of prospective decision-making that fails to
provide civil litigants with any remedy for a past
constitutional violation. See Harper v. Virginia Dep’t of
Taxation, 509 U.S. 86, 97 (1993).
Fourth, this Court has acknowledged the need to
“create incentives” for litigants to vindicate the
Constitution’s structural provisions. Lucia, 138 S. Ct.
at 2055 & n.5.
The Fifth Circuit’s refusal to vacate the Net Worth
Sweep runs afoul of all of these principles: It (1) ignores
the straightforward command of the APA, (2) bizarrely
privileges Appointments Clause violations—which
involve an illegitimate officer in an otherwise legitimate
office—above removal violations—which involve an
illegitimate office altogether, (3) amounts to illicit

9
prospective-only decision-making, and (4) all but
ensures that unconstitutional restrictions on the
President’s removal power will go unredressed by failing
to provide a meaningful reason for litigants to challenge
unconstitutional agency action. This Court should
correct these errors and ensure that the judiciary
faithfully plays its role in our constitutional system.
3. Instead of fulfilling its judicial duty to remedy the
harm that FHFA inflicted on Petitioners, the Fifth
Circuit engaged in the quintessentially legislative act
of rewriting the Housing and Economic Recovery Act
(HERA) to eliminate the Director’s removal protection
going forward. Such a severability analysis is “in
tension with traditional limits on judicial authority,”
requiring as it does inquiry into a “hypothetical intent”
that cannot be reconciled with this Court’s statutory
interpretation precedents. Murphy v. NCAA, 138 S. Ct.
1461, 1485–87 (2018) (Thomas, J., concurring). The
perilousness of such an inquiry is illustrated by this
case. Congress’s express intent was to create FHFA as
“an independent agency of the Federal Government,” 12
U.S.C. § 4511(a) (emphasis added)—indeed, FHFA’s
Director has more independence under HERA than the
head of any other agency in our Nation’s history. Yet
under the Fifth Circuit’s purportedly “judicially
conservative” remedy of severing the Director’s removal
protection, see App.73, FHFA is now uniquely
dependent on the President’s authority. That clearly is
not what Congress intended. This Court should grant
review in this case to re-evaluate its approach to
severability analysis to ensure that the judicial branch
respects the separation of powers limits the
Constitution places upon it.

10
STATEMENT
I.

Congress Establishes FHFA as an
Independent Agency Headed by a Single
Director.

Fannie Mae and Freddie Mac are private, for-profit
corporations that insure and securitize mortgages.
From 1992 until 2008, the Companies were regulated
by the Office of Federal Housing Enterprise Oversight
(OFHEO). OFHEO was not an independent agency; its
Director could be removed from office at the pleasure of
the President. See Housing and Community
Development Act of 1992 §§ 1311, 1312, 106 Stat. 3672
(Oct. 28, 1992).
During the summer of 2008, Congress enacted
HERA, which established FHFA as the successor to
OFHEO. Unlike its predecessor, FHFA is an
“independent” agency, 12 U.S.C. § 4511(a); 44 U.S.C.
§ 3502(5), and it is headed by a Director who is
removable only “for cause by the President,” 12 U.S.C.
§ 4512(b)(2). FHFA is funded through assessments that
are “not . . . construed to be Government or public
funds or appropriated money.” Id. § 4516(f)(2). As a
result, FHFA is neither subject to presidential control
nor constrained by the appropriations process.

11
II.

FHFA Forces Fannie and Freddie into
Conservatorship and Signs the PSPAs on
their Behalf.

In addition to giving FHFA supervisory regulatory
powers over the Companies, HERA also empowered
FHFA to appoint itself as the Companies’ conservator
under specified circumstances. See 12 U.S.C. § 4617(a).
On September 6, 2008, FHFA exercised that power.
HERA also gave Treasury temporary authority to
invest in the Companies’ securities. Concurrent with
FHFA’s imposition of conservatorship, Treasury
exercised that authority by entering agreements with
FHFA to purchase equity in the Companies (“Preferred
Stock Purchase Agreements” or “PSPAs”). The PSPAs
allowed the Companies to draw up to $100 billion each
from Treasury as needed to avoid a negative net
worth—an amount that was subsequently increased to
allow the Companies to draw unlimited sums from
Treasury until the end of 2012, and thereafter capped
at the amount drawn from 2010 through 2012, plus
$200 billion per Company.
In return for Treasury’s funding commitment,
FHFA agreed that the Companies would provide
several forms of consideration. First, the PSPAs
created a new class of securities with very favorable
terms to Treasury, known as Senior Preferred Stock
(“Government Stock”). For each Company, the
Government Stock had an initial liquidation preference
of $1 billion, an amount that would increase by one
dollar for every dollar drawn on Treasury’s funding
commitment. The original PSPAs required the
Companies to pay quarterly dividends on the

12
Government Stock’s liquidation preference. These
dividends could be paid in cash, at an annual rate of
10%, or in kind, by increasing the liquidation
preference by an annual amount of 12%. Paying the
dividends in kind would not have reduced the amount
available under Treasury’s funding commitment.
Second, FHFA agreed that the Companies would
issue warrants entitling Treasury to buy 79.9% of their
common stock at a nominal price. The warrants were
designed to provide upside to taxpayers if the
Companies recovered, but this upside would be shared
with the Companies’ other shareholders. The PSPAs
also provided for the Companies to pay Treasury a
quarterly market-based periodic commitment fee, but
the fee was never charged and could only be set at a
market rate with agreement from the Companies.
III.

FHFA Expropriates Private Shareholders’
Investments by Imposing the Net Worth
Sweep.

Under FHFA’s supervision in the years that
followed, the Companies were forced to dramatically
write down the value of their assets and to incur
substantial and unjustified non-cash accounting losses
in the form of loan loss reserves and write-offs of
deferred tax assets. As a result of these accounting
decisions, the Companies drew $187 billion on
Treasury’s funding commitment. But based on the
recovery of the housing market and the Companies’
performance in the second quarter of 2012, it was
apparent that the Companies’ private shares still had
substantial value.

13
On August 17, 2012, FHFA and Treasury amended
the PSPAs to impose the Net Worth Sweep. The Net
Worth Sweep replaces the PSPAs’ prior dividend
structure with one that requires Fannie and Freddie to
pay Treasury their entire net worth on a quarterly
basis, minus a small capital buffer. FHFA thus agreed
to nationalize the Companies and expropriated not just
their future earnings but also their retained capital,
thereby depriving the Companies’ private shareholders
of all of their economic rights.
As FHFA expected, the Net Worth Sweep has
resulted in massive and unprecedented payments to
the government. Since the Companies first began
paying dividends under the Net Worth Sweep during
the first quarter of 2013, they have transferred to
Treasury nearly $246 billion in purported dividends—a
sum that so far exceeds what the Companies would
have paid under the prior arrangement that the excess
payments could have otherwise been used to retire the
entire $195 billion liquidation preference on the
Government Stock. See FHFA, Table 2: Dividends on
Enterprise
Draws
from
Treasury,
https://bit.ly/2mLAFPj. Altogether, Treasury has
recouped almost $110 billion more than it disbursed to
the Companies. See id.; FHFA, Table 1: Quarterly
Draws on Treasury Commitments to Fannie Mae and
Freddie Mac per PSPA, https://bit.ly/2l6Oyr7. Yet,
FHFA insists that the outstanding liquidation
preference remains firmly fixed and that the federal
government has the right to all of the Companies’ net
worth in perpetuity.

14
IV.

Petitioners
Challenge
FHFA’s
Constitutionality and the Net Worth
Sweep.

Petitioners are Fannie and Freddie shareholders
who sued under the Administrative Procedure Act
(APA), arguing that the Net Worth Sweep must be set
aside both because it exceeded the statutory authority
of FHFA and Treasury and because FHFA is
unconstitutionally structured. The basis for the district
court’s jurisdiction over this suit was 28 U.S.C. § 1331.
In addition to seeking vacatur of the Net Worth Sweep,
Petitioners also requested a declaratory judgment that
FHFA is unconstitutionally structured. On May 22,
2017, the District Court dismissed the complaint,
ruling that all of Petitioners’ claims fail as a matter of
law. App.283–97.
On appeal, a divided three-judge panel of the Fifth
Circuit held that FHFA is unconstitutionally insulated
from oversight by the President. In reaching that
conclusion, the panel majority pointed to the combined
effect of several provisions of HERA that make FHFA
uniquely independent. These provisions give for-cause
removal protection to the single Director who heads the
agency, App.217–21, do not require bipartisan
leadership at the agency, App.221–22, and exempt it
from the normal appropriations process through which
Presidents can influence most other independent
agencies, App.223–24. As to the remedy for Petitioners’
constitutional claim, the panel struck down and severed
the Director’s for-cause removal protection but refused to
set aside the Net Worth Sweep. App.238–40. The panel
also rejected Petitioners’ statutory claims. App.185–86.

15
Chief Judge Stewart dissented from the panel’s
ruling that FHFA is unconstitutionally structured,
App.241–45, and Judge Willett dissented from the
panel’s rejection of Petitioners’ statutory claims,
App.246–80.
Petitioners and FHFA both petitioned for rehearing
en banc, and the Fifth Circuit granted both petitions.
Twelve of the en banc court’s sixteen judges agreed
that FHFA’s structure is unconstitutional, and the
majority reinstituted the portion of the panel majority’s
opinion on that issue. App.63. By a vote of nine to
seven, however, a different majority of the en banc
court refused to set aside the Net Worth Sweep.
App.73–81. In a concurring opinion joined by Judge
Owen, Judge Duncan explained that he thought the
court bound to limit the remedy for FHFA’s
unconstitutional structure to severance of the
Director’s for-cause removal protection by virtue of the
remedy adopted by this Court in Free Enterprise Fund
v. Pub. Co. Accounting Oversight Board, 561 U.S. 477,
508 (2010). See App.82–84. The decisive votes on the
remedy issue were cast by the four judges who
concluded that FHFA’s structure is constitutional.
Judge Willett dissented from the en banc court’s
ruling on the remedy, arguing that analysis of that
issue should be guided by this Court’s decision in
Bowsher v. Synar, 478 U.S. 714, 736 (1986), rather
than Free Enterprise Fund. App.152–54. Judge Willett
also observed that this Court has repeatedly set aside
prior agency actions rendered in violation of the
Appointments Clause and reasoned that it is
anomalous to withhold the same remedy for violations

16
of the President’s removal power. App.155–56. In a
separate dissent on the remedy issue, Judge Oldham
argued that the court exceeded its authority under
Article III by rewriting HERA to strip FHFA of its
independence while withholding relief that would fully
redress Petitioners’ injuries from the Net Worth Sweep.
App.111–17.
Another nine to seven majority of the en banc court
revived Petitioners’ statutory claim that FHFA
exceeded its power as conservator of the Companies in
agreeing to the Net Worth Sweep and remanded that
claim to the District Court for further proceedings.
App.57–58. The en banc Fifth Circuit acknowledged
that in reviving the statutory claim it was creating a
circuit split with the decisions of at least two other
courts of appeals. App.56.
REASONS FOR GRANTING THE PETITION
I.

This Court Should Decide Whether
Independent Agencies May be Headed by a
Single Individual.
A. This case presents an important
separation of powers question on which
the lower federal courts are divided.

FHFA’s Director wields vast regulatory power over
our Nation’s housing finance system without
accountability to the President. The current President
is a Republican, but for the first two years of his
administration, policy at FHFA was set by a former
Democratic congressman who was appointed by the
President’s Democratic predecessor. FHFA’s current
Director left the White House to take his post but since

17
moving to the agency has directed its lawyers to defend
the constitutionality of his office despite the contrary
position of the Department of Justice. And although the
current Director’s term does not expire until 2024, the
American people may in 2020 choose a new President
who fundamentally disagrees with the Director’s
policies.
For much of its short history, FHFA has been
headed by a Director who comes from a different
political party than the incumbent President, with
Presidents from both parties unable to remove and
replace the head of a key federal regulatory agency
despite major policy differences. Whether this
arrangement offends the separation of powers—and
who ultimately sets housing finance policy for the
Executive Branch—is an enormously important
question.
Review by this Court is also warranted in light of
the conflicting views on this issue expressed in the
lower federal courts. In this case, the en banc Fifth
Circuit divided twelve to four over the merits of
Petitioners’ constitutional challenge, ruling FHFA’s
structure unconstitutional despite the en banc D.C.
Circuit’s decision upholding the constitutionality of the
similarly structured CFPB. See PHH, 881 F.3d at
175–76 (Kavanaugh, J., dissenting) (FHFA “is a
contemporary of the CFPB and merely raises the same
question we confront here”). And although the decision
below leaves open the possibility that subtle differences
between the two agencies might mean that the CFPB
can stand even though FHFA must fall, the CFPB now
concedes that its structure is unconstitutional for the

18
same reason that the Fifth Circuit ruled against FHFA
in this case. Brief for the Respondent at 20, Seila Law
LLC v. CFPB, No. 19-7 (U.S. Sept. 17, 2019).
Regardless of whether the decision below can be said to
create a square split with rulings of the D.C. and Ninth
Circuits that upheld the CFPB, the hundreds of pages
that the Federal Reporter devotes to this issue attest to
the fact that many federal appellate judges have
sharply disagreed over whether an independent agency
may be headed by a single director. They also
demonstrate that this issue has been fully ventilated in
the lower courts and is ready for this Court’s review.
The uncertainty generated by the differing decisions
of the lower federal courts on this issue casts a pall
over everything FHFA does. Asked about the
constitutionality of his position by a business reporter
shortly after the en banc Fifth Circuit’s decision in this
case, FHFA’s Director promised to defend his office in
court and serve out his full five-year term. See Fannie
& Freddie Regulator on Next Steps in Mortgage Market
Reform, CNBC, at 2:52 to 3:20 (Sept. 12, 2019),
https://cnb.cx/2maxHUv. Yet market participants can
hardly be faulted for wondering whether the current
Director will be around to carry out the ambitious,
multi-year plans he has announced if a different
President wins the White House in the next election.
This Court should move swiftly to put an end to the
cloud of uncertainty that hangs over this important
agency and its fundamental relationship to the rest of
the Executive Branch.

19
Nor is further percolation in the lower federal courts
a viable option in view of the Fifth Circuit’s decision
stripping FHFA of its independence. All that remains
for the district court to do on the constitutional issue on
remand is to enter a declaratory judgment in
Petitioners’ favor. At that point, the President would be
placed in a legally precarious position. There would be
a declaratory judgment in place in the Fifth Circuit
stating that he could fire the FHFA Director at will, yet
if the President did so the Director could seek redress
in the D.C. Circuit, where precedent would be in the
Director’s favor.
Petitioners submit that the Fifth Circuit was correct
to conclude that FHFA’s structure violates the
separation of powers even considering this Court’s
decisions in Humphrey’s Executor v. United States, 295
U.S. 602 (1935), and Morrison v. Olson, 487 U.S. 654
(1988). Although the decision below correctly resolved
the merits of Petitioners’ constitutional claim, it is an
important issue on which the lower courts are divided
and therefore merits further review by this Court.
B. This case is the best vehicle for ruling
on the constitutionality of independent
agencies headed by a single director.
The Solicitor General has agreed that this Court
should take up the question whether the separation of
powers permits an independent agency to be headed by
a single director in a different case—Seila Law, LLC v.
CFPB, No. 19-7 (U.S.). For at least two reasons, this
case is the better vehicle.

20
First, although the issue was not addressed below
by the parties or the Ninth Circuit, it is doubtful that
the district court order enforcing a Civil Investigative
Demand (CID) at issue in Seila Law qualifies as a final
appealable order under 28 U.S.C. § 1291; see 12 U.S.C.
§ 5562(h)(2). The general rule is that discovery orders
compelling the production of evidence are non-final,
and “[a] party that seeks to present an objection to a
discovery order immediately to a court of appeals must
refuse compliance, be held in contempt, and then
appeal the contempt order.” Church of Scientology v.
United States, 506 U.S. 9, 18 n.11 (1992); see MDK, Inc.
v. Mike’s Train House, Inc., 27 F.3d 116, 120–22 (4th
Cir. 1994) (Wilkinson, J.) (same rule applies to
ancillary proceedings in which discovery is obtained
from a third party).
This Court has recognized an exception to the
general rule where an agency seeks a district court’s
enforcement of an administrative subpoena that “is not
ancillary to any judicial proceeding.” Cobbledick v.
United States, 309 U.S. 323, 330 (1940); see Ellis v.
Interstate Commerce Comm’n, 237 U.S. 434, 442 (1915).
The rationale for the exception is that in such cases
“there is not, as in the case of a grand jury or trial, any
further judicial inquiry which would be halted were the
offending witness permitted to appeal.” Cobbledick, 309
U.S. at 330. Notably, by statute the CFPB may only
issue CIDs “before the institution of any proceedings” in
court, 12 U.S.C. § 5562(c)(1); cf. United States v. Kernan
Hospital, No. 11-2961, 2012 WL 5879133 (D. Md. Nov.
20, 2012), so an order enforcing a properly-issued CID is
generally appealable without the recipient needing to
defy the order and be held in contempt.

21
Despite the statutory restriction on when the CFPB
may issue CIDs, however, the CID at issue in Seila
Law was issued after the agency filed two related
enforcement proceedings in district court. The agency
told the district court in a notice of related cases that
the CID “is part of an investigation that seeks
information into Seila Law’s role in the continuing
scheme that was the subject of two earlier cases.”
Notice of Related Cases at 3, CFPB v. Seila Law, LLC,
No. 17-1081 (C.D. Cal. June 22, 2017), Doc. 5. One of
those cases was still pending when the same judge to
whom all three matters were assigned ordered that the
CID issued to Seila Law be enforced. See CFPB v.
Howard, No. 17-161 (C.D. Cal.). In denying a motion to
stay that order pending appeal, the district court
emphasized that the CID issued to Seila Law was
“intertwined” with the CFPB’s enforcement action in
the still-pending Howard case and expressed concern
that delayed enforcement of the CID would “potentially
hamper[ ]” those proceedings. Order at 5, CFPB v.
Seila Law, LLC, No. 17-1081 (C.D. Cal. Sept. 1, 2017),
Doc. 29.
Because the CID in Seila Law was issued while a
related enforcement action was pending in federal
court, the case does not fit within the rationale of
Cobbledick. See Reich v. National Engineering &
Contracting Co., 13 F.3d 93, 95–96 (4th Cir. 1993)
(“[D]istrict court orders enforcing subpoenas in
connection with grand jury proceedings or criminal or
civil trials are not immediately appealable, absent a
contempt citation, because such appeals would greatly
delay the judicial process; orders enforcing subpoenas
in connection with administrative investigations, by

22
contrast, may be appealed immediately because there
is no judicial proceeding in process that such appeals
would delay.”). Indeed, if the CFPB had sought the
same information via third-party subpoena in the
Howard case rather than by issuing an untimely CID,
there is no question that an order directing Seila Law
to produce the information could not have been
appealed. This Court has repeatedly exhibited “a
healthy respect for the virtues of the final-judgment
rule,” which promotes “efficient judicial
administration” and protects “the prerogatives of
district court judges, who play a special role in
managing ongoing litigation.” Mohawk Industries, Inc.
v. Carpenter, 558 U.S. 100, 106 (2009) (internal
quotation marks omitted). Whether an immediate
appeal was nevertheless permissible in Seila Law is a
novel question that the lower courts did not address,
that only arises because all parties to the proceeding
appear to have overlooked the statutory limits on when
the CFPB may issue CIDs, and that this Court would
need to answer in the first instance before it could
reach the merits of the constitutional issue.
Second, this case is a better vehicle than Seila Law
because it concerns an agency that is currently
defending its constitutional structure. While the
Solicitor General says that the Court can assure an
adversary presentation by appointing an amicus to
defend the statute in Seila Law, there is a simpler
solution for guaranteeing an adversary presentation of
the issues: grant certiorari in this case and let FHFA
defend the constitutionality of its organic statute.
Before the Court decides the important separation of
powers question that both this case and Seila Law

23
present, it should hear from an independent agency
headed by a single Director who is prepared to defend
the constitutionality of the arrangement.
The CFPB’s capitulation also points to a more
fundamental difficulty this Court would face if it
granted the writ in Seila Law. That case presents the
separation of powers issue in the most abstract way
possible—largely unmoored from the specific facts of a
particular case, presented by a petitioner who has no
clear continuing stake in how the question is resolved,
and opposed by a respondent that concedes the
petitioner is right. Perhaps it is sometimes necessary
for the Court to take such cases to resolve important
legal issues on which the lower federal courts are
divided. But in this instance, there is an alternative.
II.

This Court Should Decide Whether
Backward-Looking Remedies Are Available
in Presidential Removal Cases.
A. Guidance from this Court is needed on
the proper remedy for violations of the
President’s removal power.

Despite holding that Petitioners have standing to
challenge FHFA’s structure and concluding that the
Director’s independence from presidential oversight
offends the separation of powers, the Fifth Circuit
refused to set aside the final agency action that
Petitioners challenge. The Fifth Circuit reached that
result by a vote of nine to seven, and a majority of the
twelve judges who agreed with Petitioners on the
merits thought that Petitioners were also entitled to
have the Net Worth Sweep set aside.

24
The Fifth Circuit’s splintered vote and the
competing views expressed below on the proper remedy
underscore the fact that there is substantial confusion
in the lower courts over this issue. The disagreement
turns in large measure on how to interpret the only two
cases in which this Court has had occasion to address
the remedy when an agency operates without the
constitutionally required degree of oversight by the
President—Bowsher v. Synar, 478 U.S. 714, 736 (1986),
and Free Enterprise Fund v. Public Co. Accounting
Oversight Bd., 561 U.S. 477, 508 (2010). The Court
should grant certiorari to clarify the law in this area.
1. To understand the significance of this Court’s
decision in Bowsher, it is necessary at the outset to
distinguish between two remedial questions that can
arise when an agency is held to be unconstitutionally
insulated from presidential oversight: (1) whether past
actions the agency took while it was unconstitutionally
independent from the President should be set aside;
and (2) what, if anything, the courts should do to sever
the unconstitutional provisions or otherwise
restructure the agency so that it operates
constitutionally in the future. As the principal dissent
below explained, Bowsher is “the only Supreme Court
case that presented” the first of those issues. App.153
(Willett, J., dissenting).
Bowsher concerned provisions of the GrammRudman-Hollings Act under which the Comptroller
General released an annual budget report, which the
President was in turn required to implement by
ordering the sequestration of specified funds in the
federal budget. The Comptroller General released his

25
first budget report under the Act on January 21, 1986,
and President Reagan issued the mandated
sequestration order on February 1, 1986. Ronald
Reagan, Order on Emergency Deficit Control Measures
for Fiscal Year 1986, https://bit.ly/2mqPHtz. A union
whose retired members stood to lose cost-of-living
adjustments to their pensions sued, arguing that this
process was unconstitutional because the Comptroller
General was removable by Congress and not the
President.
A three-judge district court that included thenJudge Scalia agreed and entered a judgment that not
only prospectively enjoined use of the challenged
process but also declared “that the presidential
sequestration order issued on February 1, 1986
pursuant to the unconstitutional automatic deficit
reduction process be, and hereby is, declared without
legal force and effect.” Synar v. United States, 626 F.
Supp. 1374, 1404 (D.D.C. 1986). This Court upheld the
backward-looking remedy, stating in the penultimate
sentence of its opinion that “the judgment and order of
the District Court are affirmed.” Bowsher, 478 U.S. at
736. The judgment in Bowsher thus shows that
backward-looking relief is available when a litigant
with standing challenges the final decision of an official
who unconstitutionally exercises executive power
without oversight from the President.
The seven judges who dissented on the remedial
issue in this case regarded Bowsher as controlling with
respect to the availability of backward-looking relief.
See App.152 (Willett, J., dissenting). But the majority
thought it distinguishable because the Comptroller

26
General was a congressional officer who “never should
have had the authority [to exercise executive authority]
in the first place.” App.176. The majority’s basis for
distinguishing Bowsher makes no sense: FHFA’s
Director, no less than the Comptroller General in
Bowsher, “never should have had the authority” that he
wields—authority to make decisions for the Executive
Branch without any oversight from the President. If, as
the majority assumed, the Net Worth Sweep would
need to be invalidated under Bowsher if it had been
unconstitutionally imposed by a congressional officer,
there is no reason why it should stand when FHFA’s
Director is unconstitutionally unaccountable to both
Congress and the President.
Equally unpersuasive is the argument that Bowsher
provides no insight on the question of backwardlooking relief in presidential removal cases because
“Congress had provided a ‘fallback’ provision should
the act be invalidated.” App.83 (Duncan, J.,
concurring). The remedial “thicket” this Court was able
to avoid in Bowsher was the distinct issue of
severability—i.e., how the federal budgeting process
should operate going forward if the Comptroller
General’s involvement were held unconstitutional. 478
U.S. at 735. Congress had included a provision in the
statute that specifically addressed that “issue of
remedy,” id. at 734, but nothing in the statute
empowered courts to award relief for past presidential
sequestration orders that would not have otherwise
been available under background principles of law, see
Pub. L. No. 99-177 § 274, 99 Stat. 1037 (1985).

27
2. The en banc Fifth Circuit was similarly divided in
this case over the import of this Court’s decision in Free
Enterprise Fund, with the majority regarding it as
controlling and the judges in dissent vigorously arguing
to the contrary. See App.73–74 (majority op.);
App.83–84 (Duncan, J., concurring); App.114 (Oldham,
J., dissenting); App.154 (Willett, J., dissenting).
Free Enterprise Fund concerned an investigation of
an accounting firm by the Public Company Accounting
Oversight Board (PCAOB). The accounting firm asked
the courts to strike down the entire statute that
created the agency, and its briefs to this Court did not
address whether past agency actions should be set
aside if the Court refused to supply the broader remedy
it sought. By the time the case reached this Court,
moreover, the PCAOB’s investigation of the firm had
concluded and “produced no sanction,” thus leaving
nothing to vacate. 561 U.S. at 490. And on remand
after this Court’s decision, the parties settled the case
rather than litigating over what should happen to the
PCAOB’s past actions. See Michael Cohn, Beckstead
and Watts Settles Inspection Case with PCAOB,
ACCOUNTING TODAY (Feb. 23, 2011),
https://bit.ly/2mb1jRw. Accordingly, no court was ever
asked to decide what should happen to past actions the
agency took during the time when it was operating
without the constitutionally required degree of
presidential oversight.
In nevertheless relying on Free Enterprise Fund, the
majority focused on this Court’s decision to sever the
statutory provision that gave the PCAOB a second layer
of for-cause removal protection rather than granting the

28
plaintiffs “broad injunctive relief against the Board’s
continued operations.” 561 U.S. at 513; see App.73–74
(majority op.); App.83–84 (Duncan, J., concurring). But
that conflates the distinct forward- and backwardlooking remedial questions that the Fifth Circuit
confronted. Whether the courts sever the statutory
provisions that make FHFA independent, invalidate the
entire statute, or take some other approach to resolving
FHFA’s structural defect going forward, the courts must
set aside the final agency action that Petitioners
challenge because FHFA took that action when it was
operating in violation of the Constitution.
***
The en banc Fifth Circuit was closely divided over
what this Court’s decisions in Bowsher and Free
Enterprise Fund mean for the appropriate remedy in a
case like this one, and Petitioners submit that the
majority went seriously astray in its reading of those
precedents. The Court should grant certiorari to clarify
the law in this important area.
B. The Fifth Circuit was wrong to refuse to
set aside the final agency action that
Petitioners challenge.
While much of the debate over remedy in the Fifth
Circuit focused on the meaning of this Court’s decisions
in Bowsher and Free Enterprise Fund, the result the
majority reached is fundamentally incompatible with
several overarching legal principles. The Court should
grant certiorari to harmonize the law of remedies for
violations of the President’s removal power with these
principles.

29
First, Petitioners in this case challenge a final
agency action—the Net Worth Sweep—and the APA
says that “[t]he reviewing court shall . . . hold unlawful
and set aside agency action . . . found to be . . . contrary
to constitutional right, power, privilege, or immunity.”
5 U.S.C. § 706 (emphasis added). This Court recently
observed that the APA “instructs reviewing courts to
set aside agency action that is . . . not in accordance
with law.” Dep’t of Commerce v. New York, 139 S. Ct.
2551, 2567–68 (2019) (internal citation and quotation
marks omitted); see also id. at 2577–78 (Thomas, J.,
concurring in part and dissenting in part) (“[T]he APA
requires courts to ‘hold unlawful and set aside’ agency
action that is . . . ‘not in accordance with law’ ”
(emphasis added)); Citizens to Preserve Overton Park,
Inc. v. Volpe, 401 U.S. 402, 413–14 (1971) (“In all cases
agency action must be set aside . . . if the action failed
to meet . . . constitutional requirements.” (emphases
added)); Jonathan F. Mitchell, The Writ-of-Erasure
Fallacy, 104 VA. L. REV. 934, 1013 (2018) (observing
that reviewing courts have an “obligation to ‘set aside’
unlawful agency action under the APA”).
Second, the Fifth Circuit’s refusal to set aside final
agency action for violation of the President’s removal
power cannot be reconciled with this Court’s repeated
decisions vacating past agency actions in the closely
related appointments context. In recent years, this
Court has twice set aside decisions rendered by officials
who were serving in violation of the Appointments
Clause. Lucia v. SEC, 138 S. Ct. 2044, 2055 (2018);
NLRB v. Noel Canning, 134 S. Ct. 2550 (2014). As the
D.C. Circuit explained in a decision this Court
affirmed, the acts of an official who serves in violation

30
of the Appointments Clause are “void ab initio.” Noel
Canning v. NLRB, 705 F.3d 490, 493 (D.C. Cir. 2013),
aff’d, 134 S. Ct. 2550 (2014); see Nguyen v. United
States, 539 U.S. 69, 77–78 (2003). 2
The remedial principles that control in
appointments cases should also control in removal
cases. The Constitution mandates certain procedures
that must be followed for a federal official to act.
Among those procedures are the requirements that
certain senior officials be appointed in the manner
specified by the Appointments Clause and subject to a
minimum degree, at least, of oversight by the
President. When these constitutionally prescribed
procedures are not followed, the official’s actions are
ultra vires and must be set aside.
Third, in refusing to grant any remedy for a past
violation of the President’s removal power, the Fifth
Circuit effectively revived this Court’s former practice
of denying backward-looking relief in certain landmark
constitutional cases. See, e.g., Buckley v. Valeo, 424
U.S. 1, 142–43 (1976); Northern Pipeline Constr. Co. v.
Marathon Pipe Line Co., 458 U.S. 50, 87–89 (1982);
Lemon v. Kurtzman, 411 U.S. 192 (1973). That practice

2

This Court has also awarded backward-looking relief in a variety
of other separation of powers cases. See, e.g., Clinton v. New York,
524 U.S. 417, 425 & n.9 (1998) (past cancellation of particular
funds under Line Item Veto was invalid); INS v. Chadha, 462 U.S.
919, 936 (1983) (plaintiff had standing because “[i]f the [legislative]
veto provision violates the Constitution, and is severable, the
deportation order against Chadha will be cancelled”); Youngstown
Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 589 (1952) (President
required to return steel mills he had already seized).

31
was “the product of the Court’s disquietude with the
impacts of its fast-moving pace of constitutional
innovation,” Williams v. United States, 401 U.S. 667,
676 (1971) (Harlan, J., dissenting), and the Court
ultimately abandoned it in Harper v. Virginia Dep’t of
Taxation, 509 U.S. 86 (1993). As the Harper Court
explained, prospective decisionmaking violates “basic
norms of constitutional adjudication,” id. at 97 (quoting
Griffith v. Kentucky, 479 U.S. 314, 322 (1987)), and
“[n]othing in the Constitution alters the fundamental
rule of ‘retrospective operation’ that has governed
‘judicial decisions . . . for near a thousand years,’ ” id.
at 94 (brackets omitted) (quoting Kuhn v. Fairmont
Coal Co., 215 U.S. 349, 372 (1910) (Holmes, J.,
dissenting)).
It makes no difference that the Fifth Circuit
withheld backward-looking relief when fashioning the
remedy rather than by expressly refusing to apply its
constitutional holding retroactively. That same
analytical approach was considered and rejected in
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749, 753–54
(1995). “If Harper has anything more than symbolic
significance,” this Court asked, what could justify “a
virtually identical denial simply because it is
characterized as a denial based on ‘remedy’ rather than
‘non-retroactivity’?” Id. at 754.
Whether framed in terms of retroactive application
of the Fifth Circuit’s decision on the merits or the
appropriate “remedy” for past violations of the
separation of powers, the majority’s denial of all
backward-looking relief was fundamentally
inconsistent with the judicial function and violated

32
“basic norms of constitutional adjudication.” Harper,
509 U.S. at 97 (quotation marks omitted); see American
Trucking Ass’ns v. Smith, 496 U.S. 167, 201 (1990)
(Scalia, J., dissenting).
Fourth, this Court has made clear that to establish
standing, separation of powers plaintiffs need not prove
that the government would have made a different
decision had it followed the procedures that the
Constitution mandates. Standing in a case like this one
“does not require precise proof of what [the
government’s] policies might have been in that
counterfactual world.” Free Enterprise Fund, 561 U.S.
at 512 n.12. The Fifth Circuit majority nevertheless
refused to set aside the Net Worth Sweep because they
thought it likely that FHFA would have done the same
thing even if it had been subject to oversight by the
President. App.78–79. It was a mistake for the Fifth
Circuit to smuggle in through the remedial back door
a set of considerations that this Court has rejected at
the standing threshold. Courts in separation of powers
cases should not guess at what an administrative
agency would have done had it been structured
differently to comport with the Constitution.
C. The scope of a proper remedy for
violations of the President’s removal
power is an important question.
1. Just two terms ago, this Court emphasized the
need to craft remedies that “create incentives to raise
Appointments Clause challenges,” Lucia, 138 S. Ct. at
2055 n.5, and the same considerations that justify
awarding meaningful relief in Appointments Clause
cases make the appropriate remedy in removal cases

33
an important issue on which this Court should provide
guidance. The cost of litigating a major separation of
powers case is substantial, and the practical reality is
that plaintiffs would not bring these cases if there were
no prospect of winning vacatur of a harmful past
agency action or some other form of backward-looking
relief.
The current wave of litigation over the
constitutionality of FHFA illustrates the point.
Plaintiffs in several other cases are challenging the
constitutionality of FHFA’s structure, but in every one
of them they seek vacatur or some other form of
backward-looking relief targeting the Net Worth
Sweep. See Bhatti v. FHFA, No. 18-2506 (8th Cir.); Rop
v. FHFA, No. 17-497 (W.D. Mich.); Wazee Street
Opportunities Fund IV LP v. FHFA, No. 18-3478 (E.D.
Pa.). Parties regulated by the CFPB have similarly
advanced constitutional challenges to that agency—not
because they want their names to appear in a casebook
but because they wish to avoid complying with civil
investigative demands, Seila Law LLC v. CFPB,
No. 19-7 (U.S.); John Doe Co. v. CFPB, 849 F.3d 1129
(D.C. Cir. 2017), or to obtain relief from agency
enforcement actions, PHH, 881 F.3d at 82–83; CFPB v.
RD Legal Funding, LLC, No. 18-2743 (2d Cir.); CFPB
v. All American Check Cashing, No. 18-60302 (5th
Cir.). If the only remedy for violations of the President’s
removal power is severance of the offending statutory
provision, future litigants will have no incentive to
raise such claims.

34
That result might not be troubling if safeguarding
the President’s removal authority were a matter of
government protocol that affected only the Executive
Branch itself, but “the separation of governmental
powers into three coordinate Branches is essential to
the preservation of liberty.” Mistretta v. United States,
488 U.S. 361, 380 (1989); see THE FEDERALIST NO. 47
(James Madison). This Court has already recognized
how a “clear and effective chain of command” within
the Executive Branch is an essential part of the
Framers’ scheme for protecting liberty. Free Enterprise
Fund, 561 U.S. at 498. It should not now cede the field
by leaving in place a remedial decision that gives
litigants no reason to bring similar cases in the future.
2. The distinct issue of the appropriate forwardlooking remedy for FHFA’s unconstitutional structure
is also important in view of its profound implications
for the agency’s relationship to the rest of the federal
government. Congress designed FHFA to be the most
independent agency in our Nation’s history—exempt
not only from presidential influence but also the
normal appropriations process through which Congress
oversees the work of most other agencies. See 12 U.S.C.
§ 4516(f)(2). And to limit interference by the courts,
Congress restricted judicial review, 12 U.S.C. § 4617(f),
and—at least on Respondents’ telling—framed the
agency’s statutory powers in sweeping terms, see 12
U.S.C. § 4617(b)(2)(J). These provisions were plainly
“meant to work together” to ensure that FHFA’s
Director could exercise discretion as free as possible
from presidential, congressional, and judicial influence.
Murphy v. NCAA, 138 S. Ct. 1461, 1483 (2018).

35
The en banc Fifth Circuit adopted a remedy that
unravels this tightly woven statutory fabric and
transforms the most independent of agencies into one
that is controlled by the President yet still insulated
from corresponding checks by the other branches. As
Justice Kavanaugh has recognized, if Congress were to
repeal the for-cause removal provisions that apply to
various agency heads, it would have good reason to also
enact “more tightly drawn substantive statutes so as to
prevent excessive delegations of power to the Executive
Branch or perceived concentration of power in the
President.” In re Aiken County, 645 F.3d 428, 447–48
(D.C. Cir. 2011) (Kavanaugh, J., concurring). By
rewriting the statutory provisions that concern FHFA’s
relationship to the President without diminishing the
agency’s insulation from the other branches, the Fifth
Circuit remade FHFA into an agency nothing like the
one that Congress created. The decision below casts
severance of the for-cause removal provision as the
most “judicially conservative” approach, App.73, but in
fact this was an ambitious step that fundamentally
altered FHFA’s place in the administrative firmament.
The Fifth Circuit’s severance analysis was
inconsistent with this Court’s precedents, which say
that after severance the statutory provisions that
remain must “function in a manner consistent with the
intent of Congress.” Alaska Airlines, Inc. v. Brock, 480
U.S. 678, 685 (1987). This Court should decide whether
the Fifth Circuit was correct to make FHFA
“subservient to the Executive Branch” while leaving in
place statutory provisions that insulate the agency
from Congress and the judiciary, for this was an
important decision that “significantly altered” the

36
“balance that Congress had in mind.” Bowsher, 478
U.S. at 734–36. 3
Justice Thomas has suggested a different approach
when the courts confront a partially unconstitutional
statute—one under which the Court would set aside
the agency action Petitioners challenge while leaving it
to Congress to correct the statute’s constitutional
problem going forward. See Murphy, 138 S. Ct. at 1485
(Thomas, J., concurring) (“[I]n a future case, we should
take another look at our severability precedents.”). As
Judge Oldham’s partial dissent demonstrates, this case
is an ideal vehicle for considering the merits of that
alternative. See App.117 (“Our Court should not add to
the confusion about the judiciary’s limited powers by
claiming to ‘sever’ a statute based on open-ended
speculation about how Congress would have solved the
separation-of-powers problem.”). Indeed, it is difficult
to imagine a case that better illustrates how the
Court’s existing severability precedents are “in tension
with traditional limits on judicial authority” and “do[ ]
not follow basic principles of statutory interpretation.”
Murphy, 138 S. Ct. at 1486 (Thomas, J., concurring).

3

Because in Free Enterprise Fund this Court struck down one
layer of the PCAOB’s for-cause removal protection while leaving
the other in place, the remedy adopted in that case did not
similarly transform the PCAOB’s basic relationship with the
Executive Branch. Even after severance, the PCAOB continued to
enjoy significant insulation from the President. See PHH, 881 F.3d
at 191 (Kavanaugh, J., dissenting) (observing that second layer of
for-cause removal protection “did not afford PCAOB members all
that much additional insulation from the President”).

37
Whether this Court adopts the approach proposed
by Justice Thomas or adheres to its existing
severability precedents, the question whether, and how
much of, the statute survives if the Director’s for-cause
removal protection is unconstitutional has profound
consequences for how FHFA relates to the rest of the
federal government. This Court should decide that
issue.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Charles Flores
BECK REDDEN LLP
1221 McKinney St.
Houston, Texas 77010
(713) 951-3700

Charles J. Cooper
Counsel of Record
David H. Thompson
Peter A. Patterson
Brian W. Barnes
COOPER & KIRK, PLLC
1523 New Hampshire
Avenue, N.W.
Washington, D.C. 20036
(202) 220-9600
ccooper@cooperkirk.com

Counsel for Petitioners
September 25, 2019

